No. 21-145
In the

Supreme Court of the United States
GORDON COLLEGE, et al.,
Petitioners,
v.
MARGARET DeWEESE-BOYD,
Respondent.
On Petition for a Writ of Certiorari
Supreme Judicial Court of Massachusetts

to the

BRIEF OF AMICI CURIAE THE CARDINAL
NEWMAN SOCIETY, THE INTERNATIONAL
ALLIANCE FOR CHRISTIAN EDUCATION, AND
THE ASSOCIATION FOR BIBLICAL HIGHER
EDUCATION IN SUPPORT OF PETITIONER
Samuel W. Diehl
CrossCastle PLLC
333 Washington Avenue North
Suite 300-9078
Minneapolis, MN 55401
(612) 429-8100
sam.diehl@crosscastle.com

Sharon A. Rose
Counsel of Record
Jared R. Butcher
CrossCastle PLLC
1701 Pennsylvania Avenue, NW
Suite 200
Washington, DC 20006
(202) 960-5800
sharon.rose@crosscastle.com

Counsel for Amici Curiae
September 2, 2021
306939

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Whether professors at religious colleges perform
ministerial functions when the college exists to
spread its faith, and the college requires faculty,
as a primary component of their position, to
integrate Christian doctrine into their work
and academic disciplines, engage in teaching
and scholarship from a decidedly religious
perspective, and serve as advisors and mentors
for student spiritual formation.

2.

Whether the First Amendment requires courts
to defer to the good-faith characterization of a
ministerial position by a religious organization
or church.

ii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
INTERESTS OF AMICI CURIAE  . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY OF THE
ARGUMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

This Court Should Summarily Reverse,
or Accept Rev iew and Reverse, the
Massachusetts Court’s Decision to Correct
Its Errors in Applying This Court’s
Ministerial Exception Holdings . . . . . . . . . . . . . . 5

II. The Decision Fundamentally Erred By
Disregarding Gordon’s Right to Decide
Matters of Religious Governance, Faith,
and Doctrine . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
III. Failure to Protect the Rights of Religious
Colleges and Universities Will Diminish
Their Contribution to the Greater Good
and Limit, Not Advance, the Massachusetts
Court’s Policy Goals . . . . . . . . . . . . . . . . . . . . . . . 15

iii
Table of Contents
Page
IV. The Questions Presented Are Crucial To
Preserve Religious Institutions’ Faithfulness
to Their Religious Tenets Despite Cultural
Shifts and to Resolve Existing Disparities
Among Lower Courts in Applying the
Ministerial Exception  . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

iv
TABLE OF CITED AUTHORITIES
Page
CASES:
Bostock v. Clayton Cty.,
590 U.S. ___, 140 S. Ct. 1731 (2020) . . . . . 4, 22, 23, 24
Corp. of Presiding Bishop of Church
of Jesus Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987) . . . . . . . . . . . . . . . . . . . . . . . . 13, 21
DeWeese-Boyd v. Gordon College,
163 N.E.3d 1000 (Mass. 2021) . . . . . . . . . . . . . . passim
Duquesne Univ. of the Holy Spirit v. N.L.R.B.,
947 F.3d 824 (D.C. Cir. 2020) . . . . . . . . . . . . . . . . . . . 19
Employment Div., Dept. of Human
Resources of Ore. v. Smith,
494 U.S. 872 (1990)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Hosanna-Tabor Evangelical Lutheran Church
& Sch. v. EEOC,
565 U.S. 171 (2012)  . . . . . . . . . . . . . . . . . . . . . . . passim
Kedroff v. Saint Nicholas Cathedral
of Russian Orthodox Church in N. Am.,
344 U.S. 94 (1952) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Mitchell v. Helms,
530 U.S. 793 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

v
Cited Authorities
Page
N.L.R.B. v. Cath. Bishop of Chicago,
440 U.S. 490 (1979)  . . . . . . . . . . . . . . . . . . . . . . . .  14, 19
Our Lady of Guadalupe School v.
Morrissey-Beru,
591 U.S. __, 140 S. Ct. 2049 (2020) . . . . . . . . . . passim
Presbyterian Church in U. S. v. Mary Elizabeth
Blue Hull Memorial Presbyterian Church,
393 U.S. 440 (1969) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Rosenberger v. Rector & Visitors of Univ.
of Virginia,
515 U.S. 819 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Univ. of Great Falls v. N.L.R.B.,
278 F.3d 1335 (D.C. Cir. 2002) . . . . . . . . . . . . . . . . . . 13
STATUTES AND OTHER AUTHORITIES:
U.S. Const. amend. I  . . . . . . . . . . . . . . . . . . . . . . . . passim
Apostolic Constitution of the Supreme Pontiff
John Paul II on Catholic Universities,
Introduction § 4 (1990) . . . . . . . . . . . . . . . . . . . . . . . .  17
A ppl ic at ion of T hom a s A qu i n a s Col lege
to Award the Bachelor of Arts in Liberal
A r t s, Ma ssa chusett s Boa rd of H igher
Education Request for Committee and Board
Action, 14 (Oct. 23, 2018)  . . . . . . . . . . . . . . . . . . .  24-25

vi
Cited Authorities
Page
Douglas Laycock, Towards a General Theory of
the Religion Clauses: The Case of Church Labor
Relations and the Right to Church Autonomy,
81 Colum. L. Rev. 1373 (1981) . . . . . . . . . . . . . . . . . . 13
G. Post, Papacy and the Rise of the Universities
(2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Harold J. Berman, The Origins of Western
Legal Science, 90 Harv. L. Rev. 894 (1977) . . . . . . . 16
Michael W. McConnell, Academic Freedom in
Religious Colleges and Universities, 53 Law &
	Contemp. Probs. 303 (1990) . . . . . . . . . . .  15, 16, 19, 23
Supreme Court Rule 37.2(a)  . . . . . . . . . . . . . . . . . . . . . . . 1
Supreme Court Rule 37.6  . . . . . . . . . . . . . . . . . . . . . . . . . 1
T he A ssociat ion for Bibl ica l H igher
Education, Commission on Accreditation
Manual (2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17-18

1
INTERESTS OF AMICI CURIAE
Amici curiae1 The Cardinal Newman Society, the
International Alliance for Christian Education, and the
Association for Biblical Higher Education are dedicated
to promoting and defending the value of orthodox Catholic
and protestant education. They represent the religious
interests of over 200 colleges, universities, and seminaries
across the United States with diverse historical, cultural,
and doctrinal roots. Notwithstanding material differences
in religious doctrine and worship, these institutions share
a common goal of providing students with an academically
rigorous post-secondary education, in a broad range of
subjects, each of which is grounded in and connected to
the supreme Truth, who is God and his son, Jesus Christ.
Amici ask this Court to reverse the Massachusetts
Supreme Judicial Court’s decision because the narrowed
ministerial exception it applied is inconsistent with this
Court’s precedent and threatens the purpose and character of
every religious college and university. While each institution
is unique, Amici’s Catholic and protestant institutions identify
with Gordon College (“Gordon”) because they too exist to
teach and perform scholarship inextricably integrated with
faith. The standard applied by the Massachusetts Court
limiting the selection and promotion of faculty who carry out
their faith-based mission violates religious institutions’ right
to define their faith and threatens their ability to remain
religious colleges and universities.
1. Pursuant to Supreme Court Rule 37.6, no one other than
Amici and their counsel authored this brief in whole or part or
contributed money to fund its preparation or submission. Pursuant
to Rule 37.2(a), Amici provided timely notice to all parties’ counsel
of record of their intent to file this brief. All parties have consented
to the filing of this brief in blanket consents on file.

2
INTRODUCTION AND SUMMARY
OF THE ARGUMENT
Amici ask this Court to overturn the Massachusetts
Supreme Judicial Court and hold that the First Amendment
mandates a ministerial exception no less robust in the
context of religious higher education than applied to
elementary and secondary schools. Faculty are the
life-blood of every college and university, without which
teaching and scholarship cannot occur. For faithful
Catholic and protestant institutions, teaching and
scholarship is not an end in itself. Without recognizing the
“Word” through whom “all things were made” (John 1:13), teaching and scholarship on any subject is incomplete.
The Massachusetts Court applied an improperly
narrow construction of the ministerial exception, holding
that Gordon could not claim the exception as a defense
to statutory claims brought by Respondent Margaret
DeWeese-Boyd after Gordon denied her application to
full professorship. Amici request reversal because the
decision failed to follow this Court’s precedent by creating
a new and undefined category of “Christian teacher and
scholar, but not a minister,” or at least not one subject
to the ministerial exception recognized by this Court in
Hosanna-Tabor Evangelical Lutheran Church & Sch. v.
EEOC, 565 U.S. 171, 184, 188 (2012) and further articulated
in Our Lady of Guadalupe School v. Morrissey-Beru, 591
U.S. __, 140 S. Ct. 2049 (2020). The First Amendment and
this Court’s precedent do not recognize this distinction.
The decision disregarded Gordon’s Constitutional
right to decide matters of its religious governance, faith,
and doctrine, including whether and in what role DeWeese-

3
Boyd could teach on its behalf. The court, and both parties,
acknowledged Gordon’s foundation in Christianity and
requirements that DeWeese-Boyd integrate the Christian
faith in her teaching and scholarship. Nonetheless, the
Massachusetts Court determined that Gordon did not
require sufficient ritualistic or ceremonial duties of
DeWeese-Boyd for her to qualify as a minister; instead,
the court found she was only a “Christian scholar and
teacher.” The Massachusetts Court imposed this newly
minted category to permit state-imposed statutory
prohibitions on retaliation, even when the employment
decision at issue related to policy and practices dictated by
the college’s faith. Religious institutions like Gordon—not
state statutes or the courts—are entitled to determine
the scope and application of their religious beliefs to
those who teach their faith and carry out their religious
mission. Gordon’s educational ministry—like that of all
religious colleges and universities—depends on faculty
who are willing and able to integrate the institution’s
faith in their teaching and scholarship. And Gordon
is entitled to define its faith and determine how that
faith is carried out in matters of internal government
and employment, not individual faculty members. The
standard the Massachusetts Court applied fundamentally
threatens Gordon’s and other religious institutions’
ability to accomplish their missions and to maintain their
pervasively religious character.
By ignoring Gordon’s First Amendment rights, the
Massachusetts decision threatens the existence and
future contributions of religious institutions. It will
ultimately harm the policy goals the Massachusetts Court
intended to advance. The institutions Amici represent,
and hundreds of others, enrich America’s intellectual life

4
in myriad ways by contributing to diversity of thought
and preserving alternatives to secular views. If the
Massachusetts’ decision stands, religious institutions will
have to implement wasteful and unnecessary defensive
measures that distract from their mission and diminish
faculty’s academic freedom. Schools such as Gordon should
be allowed to permit debate and discourse within the
dictates of their faith without risk to their core religious
character. And institutions should not be required to add
unnecessary ritualistic or ceremonial duties for faculty
who are required to pervasively integrate faith in their
post-secondary teaching and scholarship. Gordon’s
undisputed mandate that DeWeese-Boyd integrate the
Christian faith in her teaching and scholarship, without
more, was sufficient under the First Amendment to
require application of the ministerial exception.
The questions Gordon presented for this Court’s review
are crucial to preserve religious institutions’ faithfulness
to their religious tenets and to resolve disparities among
lower courts in applying the ministerial exception. This
Court anticipated in Bostock v. Clayton Cty., 590 U.S.
___, 140 S. Ct. 1731, 1754 (2020) that it would need to
address cases like this one involving the intersection of
employment discrimination and religious liberty. This
Court must clarify that the First Amendment guarantees
the right of religious colleges and universities to define
their faith and incorporate its mandates in all aspects of
teaching and scholarship, free from government intrusion.
Religious colleges and universities have provided faithful
teaching since America’s founding. Their right to continue
is protected by the First Amendment and does not depend
on broader cultural shifts or jurisdictional location. Amici
ask this Court to grant certiorari and summarily reverse

5
the Massachusetts Court, or in the alternative, grant
review to clarify the proper breadth of the ministerial
exception in religious post-secondary education.
ARGUMENT
I.

This Court Should Summarily Reverse, or Accept
Review and Reverse, the Massachusetts Court’s
Decision to Correct Its Errors in Applying This
Court’s Ministerial Exception Holdings.

This Court should summarily reverse, or accept review
and reverse, the Supreme Judicial Court of Massachusetts’
decision in DeWeese-Boyd v. Gordon College, 163 N.E.3d
1000 (Mass. 2021). The First Amendment prohibits
state interference with religious institutions’ selection,
promotion, and termination of individuals charged with
teaching their faith and doctrine. See Hosanna-Tabor
Evangelical Lutheran Church & Sch. v. EEOC, 565 U.S.
171, 184, 188 (2012); Our Lady of Guadalupe School v.
Morrissey-Beru, 591 U.S. __, 140 S. Ct. 2049 (2020). The
Massachusetts Court violated this principle by narrowing
the ministerial exception and finding it inapplicable to
Gordon professor Margaret DeWeese-Boyd.
The Massachusetts Court’s decision properly
began with this Court’s precedent in applying the First
Amendment’s ministerial exception to religious schools’
employment decisions. See DeWeese-Boyd, 163 N.E.3d
at 1011-12. But the decision soon departed from the
functional analysis this Court prescribed. The court
quoted Our Lady, stating “[w]hat matters, at bottom,
is what an employee does. … educating young people in
their faith, inculcating its teachings, and training them

6
to live their faith are responsibilities that lie at the very
core of the mission of a private religious school” and “the
exception should include ‘any “employee” who . . . serves
as a messenger or teacher of its faith.’” Id. at 1012 (citing
Our Lady, 140 S. Ct. at 2064 (quoting Hosanna-Tabor, 565
U.S. at 199 (Alito, J., concurring) (emphasis in original)).
The court enumerated the explicit requirements Gordon
established for DeWeese-Boyd and other faculty to
integrate faith into teaching and scholarship in Gordon’s
faculty handbook and corresponding requirements within
the social work curriculum DeWeese-Boyd taught. Id. at
1012-13; see also discussion infra Section II. The court
conceded DeWeese was “required to, and did, both
engage in teaching and scholarship from a Christian
perspective and integrate faith into her work,” and that it
was “undisputed that this integrative responsibility was
part of her duty and function as a social work professor”
at Gordon. DeWeese-Boyd, 163 N.E.3d at 1012-13. The
court also acknowledged the importance of integrating
faith into teaching and scholarship at Gordon, noting the
college’s President and Provost likened joining Gordon’s
faculty “to responding to a formal call to religious service.”
Id. at 1013. But rather than ending its inquiry there
(see discussion infra Section II), the court hesitated to
apply proper functional analysis to the robust evidence
of pervasive religious teaching at Gordon, dismissively
minimizing the integration of Christian faith into teaching
and writing in DeWeese-Boyd’s academic discipline as a
“more general religious reflection” insufficient “to render
[DeWeese-Boyd] a minister” under this Court’s precedent.
DeWeese-Boyd, 163 N.E.3d at 1014.

7
The court continued by applying its own, narrow
ministerial exception through a simplistic analysis
prohibited by Our Lady and Hosanna-Tabor. See Our
Lady, 140 S. Ct. at 2066-67; Hosanna-Tabor, 565 U.S. at
190. The court concluded that DeWeese-Boyd was not a
“minister” by determining she did not fulfill a restrictive
list of qualifications and ecumenical duties inapplicable
to a college professor. See DeWeese-Boyd, 163 N.E.3d at
1017. The court found DeWeese-Boyd was not ordained nor
trained regarding ministerial responsibilities, ignoring
that this is true of most post-secondary faculty at religious
institutions. DeWeese-Boyd, 163 N.E.3d at 1008. The
court noted she did not “take her students to religious
services,” lead services, or engage in other ritualistic
activities or ceremonies the court—but not Gordon or
Amici’s institutions—expected of Christian faculty. Id.
The court ignored Gordon’s rights as a religious employer
and repeatedly credited DeWeese-Boyd’s testimony on
irrelevant factors, including that “[s]he never viewed
herself or held herself out as a minister for Gordon,[2]
nor did she understand her job to include responsibility
for encouraging students to participate in religious life
or leading them in spiritual exercises.” 3 And the court’s
2. The decision seemed to confuse the formal title of
“minister”—which some might interchange with “pastor” or
“reverend”—and the informal use of “minister,” referring to one
who engages in the act of ministry to students. Similar semantic
confusion seems to have been the source for DeWeese-Boyd’s and
other faculty members’ objection to adding “minister” to Gordon’s
Administrative/Faculty Handbook.
3. Spiritual exercises are a practice taught by Saint Ignatius
of Loyola and continued by some Catholics and Catholic institutions
(particularly Jesuit institutions). Amici are aware of no protestant
institutions that use this term or apply this Ignatian teaching and
practice.

8
finding that DeWeese-Boyd did not “teach religion
or biblical studies” emphasized a dichotomy between
“secular” and “religious” scholarship not recognized by
Gordon or any of the institutions Amici represent. The
court effectively reduced Gordon’s overriding mission
of expressly integrating its religious beliefs throughout
academic disciplines—a hallmark of Christian higher
education—to a limited set of religious duties that, if
absent, obliterates the ministerial function.
Instead of a narrow construction, the Massachusetts
Court should have applied a broad ministerial exception,
particularly to the higher education context at issue. Unlike
the elementary schools in Hosanna-Tabor and Our Lady,
colleges and universities are learning communities that
shepherd adolescents into adulthood. Gordon and similar
religious institutions promote the spiritual formation of
students by transmitting the tenets of their faiths through
all academic disciplines, to a much deeper intellectual
and pervasive degree than in elementary and secondary
schools. Unlike young children, undergraduate and
graduate students voluntarily elect, or at least are involved
in the decision, to attend a religious institution. If the
elementary school teachers in Our Lady were “entrusted
most directly with the responsibility of educating [the
schools’] students in the faith,” how much more must
professors at religious post-secondary institutions be
understood as ministers who “teach[] and convey[] the
tenets of the [institution’s] faith to the next generation”
through the very principles students will utilize in their
professions, families, and communities. See HosannaTabor, 565 U.S. at 200 (Alito, J., concurring). That is
the purpose for which Gordon and similar institutions
exist. See Our Lady, 140 S. Ct. at 2055 (“The religious

9
education and formation of students is the very reason
for the existence of most private religious schools, and
therefore the selection and supervision of the teachers
upon whom the schools rely to do this work lie at the core
of their mission.”). Government action that undermines
the independence and purpose of religious colleges and
universities, as the Massachusetts decision did, places
religious institutions in the untenable position of having
to retain faculty and staff who are not committed to their
mission or foundational beliefs.
This Court must not permit the Massachusetts
Court’s errors to endure. This Court should summarily
reverse its decision, or alternatively, grant review and
clarify that integration between faith and academia lies
at the core of the ministerial exception.
II. The Decision Fundamentally Erred By Disregarding
Gordon’s Right to Decide Matters of Religious
Governance, Faith, and Doctrine.
The Massachusetts Court’s most fundamental
error was disregarding Gordon’s right to determine the
ministerial duties of its faculty. The foundation of the
ministerial exception is the “right of religious institutions
‘to decide for themselves, free from state interference,
matters of church government as well as those of faith and
doctrine.’” Our Lady, 140 S. Ct. at 2055 (quoting Kedroff
v. Saint Nicholas Cathedral of Russian Orthodox Church
in N. Am., 344 U.S. 94, 116 (1952)) (emphasis added); see
also Hosanna-Tabor, 565 U.S. at 186. The court’s decision
ignored this legal foundation by relying on superficial
factors, the plaintiff’s opinions, and apparent disfavor of
orthodox religious beliefs. Unable to disregard DeWeese-

10
Boyd’s important duties to integrate her Christian faith
into her teaching and scholarship, the court created a
new, unworkable category of allegedly non-ministerial
“Christian teacher and scholar” that courts are entitled to
protect from discrimination on the basis of race, religion,
national origin, sex, sexual orientation, or other statutory
categories. DeWeese-Boyd, 163 N.E.3d at 1018.
Both parties acknowledged that Gordon requires all
faculty to integrate Christian faith with their teaching
and scholarship. As its President summarized, Gordon
believes “there are no nonsacred disciplines” and every
academic subject “is informed [and] shaped by” the
Christian faith. Id. at 1004. The court noted numerous
undisputed requirements and duties assigned by Gordon
to DeWeese-Boyd and other members of Gordon’s faculty,
including mandating that each:
• “must affirm Gordon’s Statement of Faith and
agree to abide by the behavioral standards in
Gordon’s Statement on Life and Conduct.”
• teach as part of “Gordon’s core curriculum, which
‘explores the liberal arts and sciences from a
Christian perspective.’”
• are “members of a community of Christian
scholars,” “committed to imaging Christ in all
aspects of their educational endeavors.”
• “‘must integrate faith and learning,’ including [by]
demonstrating” that he or she

11
o “cultivates a sense that ‘knowing’ is a matter
not just of the intellect, but also of [Christian]
faith, praxis, and intuitive insight”;
o “helps students make connections between
course content, Christian thought and principles,
and personal faith and practice”; and
o “encourages students to develop morally
responsible ways of living in the world informed
by biblical principles and Christian reflection.”
• must “detail how they integrate faith and learning,
including submitting an ‘integration paper’ at the
end of their third year of appointment” and
• must “befriend[] students,” “model[] Christlike behavior,” and nurture “students’ faith
commitments and maturity.”
Id. at 1004-05, 1013.
In addition to these general faculty requirements, the
court found DeWeese-Boyd:
• was part of Gordon’s program dedicated to
education “in social work within the context of a
Christian liberal arts institution” and a goal of
the “integration and application of social work and
Christian values” (Id. at 1004);
• was required to submit a second “integration
paper” when seeking tenure that “more explicit[ly
addressed] her understanding of integration” of

12
faith and scholarship than her first paper (Id. at
1007, n.13); and
• admitted her duty to integrate “social work and
Christian values,” including by “teaching students
about connections between course material
and the Christian faith, and reflecting on the
role of Christian scholarship in the ‘decidedly
nonsectarian’ field of social work” (Id. at 1013).
This litany of undisputed ministerial duties abundantly
shows that Gordon’s professors—even those teaching
so-called “secular” subjects—are required to teach
and conduct post-secondary scholarship incorporating
and integrating the Christian faith. This is essential
to fulfill the college’s mission “to graduate men and
women distinguished by intellectual maturity and
Christian character” and dedicated to “[t]he historic,
evangelical, biblical faith.” DeWeese-Boyd, 163 N.E.3d
at 1004. Nonetheless, the Massachusetts Court sought
to avoid the obvious conclusion that DeWeese-Boyd
had sufficient ministerial duties to be exempt from
discrimination laws by relying on irrelevant, superficial
factors and unconstitutional balancing regarding Gordon’s
rights. The court expressed alarm at “expansion of the
ministerial exception . . . eclipsing and eliminat[ing] civil
law protection against discrimination . . . .” Id. at 1017.
Seeking to avoid this exception, the court created a new
category of ministerial employee heretofore unrecognized
by the courts: “a Christian teacher and scholar, but not
a minister” who is permitted to claim retaliation and
discrimination on the basis of any protected factor, such
as race, religion, national origin, sex, or sexual orientation.
Id. at 1018. This finding is incompatible with the law.

13
G or don , not D eWe e s e - Boyd , i s ent it le d t o
“independence in matters of faith and doctrine and in
closely linked matters of internal government.” Our Lady,
140 S. Ct. at 2061. This Court has long held that religious
institutions “have an interest in autonomy in ordering
their internal affairs, so that they may be free to[] ‘select
their own leaders, define their own doctrines, resolve
their own disputes, and run their own institutions.’”
Corp. of Presiding Bishop of Church of Jesus Christ of
Latter-day Saints v. Amos, 483 U.S. 327, 341–42 (1987)
(quoting Douglas Laycock, Towards a General Theory of
the Religion Clauses: The Case of Church Labor Relations
and the Right to Church Autonomy, 81 Colum. L. Rev.
1373, 1389 (1981)). “[J]udges cannot be expected to have
a complete understanding and appreciation of the role
played by every person who performs a particular role
in every religious tradition” and Gordon’s “explanation
of [DeWeese-Boyd’s] role . . . in the life of the religion in
question is important,” not the reverse. Our Lady, 140 S.
Ct. at 2066 (emphasis added).
Once the Massachusetts Court found Gordon was a
religious institution that required DeWeese-Boyd to follow
mandates such as those enumerated above, the court was
required to find DeWeese-Boyd to be ministerial. The
Massachusetts Court’s further inquiry into Gordon’s
religious views and practices was “not only unnecessary
but also offensive. It is well established . . . courts should
refrain from trolling through a person’s or institution’s
religious beliefs.” Mitchell v. Helms, 530 U.S. 793, 828
(2000) (plurality opinion) (citing Employment Div., Dept.
of Human Resources of Ore. v. Smith, 494 U.S. 872, 887
(1990)); see also Univ. of Great Falls v. N.L.R.B., 278 F.3d
1335, 1341-44 (D.C. Cir. 2002). The “process of inquiry

14
leading to findings and conclusions” regarding a religious
institution’s beliefs and practices “may impinge on rights
guaranteed by the Religion Clauses . . . .” N.L.R.B. v.
Cath. Bishop of Chicago, 440 U.S. 490, 502, 517 n.10 (1979).
A court’s policy preference to broadly apply state
statutes may not limit protected religious exercise and
expression. States “shall make no law respecting an
establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech . . . .” U.S.
Const. amend. I. The court’s finding that DeWeese-Boyd
is a “Christian teacher and scholar,” but not a ministerial
employee, is a distinction without a difference. In Our
Lady, this Court found that to be an exempt ministerial
employee, the employee need not be a co-religionist for
fear of “judicial entanglement in religious issues.” 140 S.
Ct. at 2068–69. Such semantic distinctions will inevitably
require courts to resolve “controversies over religious
doctrine” that “courts must take care to avoid . . . .” Id. at
140 S. Ct. at 2063 n. 10 (quoting Presbyterian Church in
U. S. v. Mary Elizabeth Blue Hull Memorial Presbyterian
Church, 393 U.S. 440, 449 (1969)).
Examining DeWeese-Boyd’s claim in its full context
illuminates the court’s error. If Gordon is to remain a
religious institution, it must be allowed to define its faith,
dictate how this faith is taught across academic disciplines,
and decide who will carry out its teaching ministry free
from government interference. Whether DeWeese-Boyd
is labeled a minister, or simply a “Christian teacher and
scholar,” does not change Gordon’s right to determine who
teaches its message, how, and whether “vocal opposition”
to Gordon’s faith-informed policies and practices should
disqualify such person from promotion or employment.

15
Implicit in the Massachusetts Court’s holding is that
the lower court may find Massachusetts’ discrimination
statute to limit or prohibit Gordon from exercising
its Christian beliefs. This outcome is untenable under
the First Amendment and this Court’s precedent. The
Court should reverse, or accept review and reverse, the
Massachusetts decision.
III. Failure to Protect the Rights of Religious Colleges
and Universities Will Diminish Their Contribution
to the Greater Good and Limit, Not Advance, the
Massachusetts Court’s Policy Goals.
Religious colleges and universities have advanced and
enriched higher education since the early Middle Ages.
Today, Catholic and protestant colleges and universities,
and institutions adhering to other faiths, continue to
operate as forces for good and unique bastions enabling
diversity of thought. The conception of a “Christian
teacher and scholar,” subject to none other than her
personal beliefs or the majority cultural view on religion
and statutory discrimination protections, will inevitably
harm religious institutions and produce consequences
antithetical to those the Massachusetts Court sought
to advance. Its decision contravenes Professor Michael
McConnell’s prescient warning “that a principle born of
opposition to dogmatism not itself become dogmatic and
authoritarian.”4

4. Michael W. McConnell, Academic Freedom in Religious
Colleges and Universities, 53 Law & Contemp. Probs. 303, 314
(1990).

16
It is important to acknowledge the longstanding
contributions to higher education by people of faith.
Western law schools and the first universities were
founded by Church scholars studying Roman Catholic
canon law. See Harold J. Berman, The Origins of Western
Legal Science, 90 Harv. L. Rev. 894, 896 (1977). Shortly
after the founding of the first universities in Bologna and
Paris, Pope Honorius III’s intervention granted scholars
and students corporate autonomy from local authorities.
G. Post, Papacy and the Rise of the Universities, 158-59
(2017). This Court has acknowledged the contributions
of these first and intrinsically religious institutions to
the intellectual awakening of Europe. See Rosenberger
v. Rector & Visitors of Univ. of Virginia, 515 U.S. 819,
836 (1995). In the American colonies and later United
States, protestant churches founded the vast majority of
its early universities, including Harvard, Yale, Princeton,
Columbia, and Brown universities or their precursors.
Throughout American history, religious colleges and
universities—including the Catholic and protestant
institutions Amici represent—have made inestimable
contributions to scholarship in all academic subjects
without sacrificing faithful adherence to their unique
beliefs and practices. Throughout its history, the Church
and religious colleges and universities have promoted
rigorous scholarship free from intrusion by civil law and
authorities. Gordon, Amici, and other religious institutions
continue this tradition of seeking autonomy, which remains
essential for “intellectual life by contributing to the
diversity of thought and preserving important alternatives
to post-Enlightenment secular orthodoxy.”5

5. McConnell, supra note 4, at 312.

17
Institutions represented by Amici produce these
contributions by engaging in research, scholarship,
and teaching in all academic subjects, integrated with
the particular dictates of their theology and faith. Ex
corde Ecclesiae, the Apostolic Constitution on Catholic
Universities, summarizes the essential nature of such
integration:
a Catholic University is completely dedicated
to the research of all aspects of truth in their
essential connection with the supreme Truth,
who is God. It does this without fear but rather
with enthusiasm, dedicating itself to every path
of knowledge, aware of being preceded by him
who is “the Way, the Truth, and the Life”, the
Logos, whose Spirit of intelligence and love
enables the human person with his or her own
intelligence to find the ultimate reality of which
he is the source and end and who alone is capable
of giving fully that Wisdom without which the
future of the world would be in danger.
Apostolic Constitution of the Supreme Pontiff John Paul II
on Catholic Universities, Introduction § 4 (1990), available
at https://www.vatican.va/content/johnpaulii/en/apost_
constitutions/documents/hf_ jp-ii_apc_15081990_excorde-ecclesiae.html (last visited Aug. 31, 2021) (emphasis
added). The concept is equally important to protestant
institutions. For example, the Association for Biblical
Higher Education summarizes the same concept in its
accreditation manual requiring each school demonstrate
“[e]vidence that the integration of curricular components
supports development of a biblical worldview” in every
academic program. The Association for Biblical Higher

18
Education, Commission on Accreditation Manual, 28
(2021), available at https://www.abhe.org/wp-content/
uploads/2021/07/2021-COA-Manual-2021-07-28.pdf. These
standards are essentially the same as Gordon required
DeWeese-Boyd to fulfill. The Massachusetts Court’s
refusal to acknowledge and protect a college’s right to
determine and apply its theological standard would forever
harm the scholarship and contribution of schools Amici
represent.
For these institutions, their faith requirements are of
eternal importance. They recognize there is no profit in
worldly prestige, academic prominence, or even statutory
compliance if it results in forfeiting their institutional
souls. In response to recent sweeping cultural and legal
changes, religious colleges and universities have been
forced to engage in a policy “arms race” attempting to
faithfully apply their religious beliefs under evolving
mandates that may conflict with their faith obligations.
These concerns are not hypothetical. It appears 6 that
in response to such concerns, both before and during
DeWeese-Boyd’s litigation, Gordon:
• Added the word “minister” to its handbook
description of faculty (DeWeese-Boyd, 163 N.E.3d
at 1006);
• Now “holds a ‘Vision Day’ for new faculty, which
includes prayer and commissioning” (Id. at 1008,
n.17);
6. Neither Amici nor their counsel have consulted with
or otherwise have any actual knowledge of Gordon’s policies,
practices, or modifications to same beyond those identified in this
case’s published decisions.

19
• Now “conducts seminars concerning the integration
of faith and learning to assist second-year faculty
in writing their third-year integration paper” (Id.
at 1008, n.18); and
• Eliminated its social work major (Id. at 1004, n.7).
If the Massachusetts’ decision stands, Gordon and
other schools are subject to a Catch-22. To ensure they
may continue to require faculty to fulfill their primary
mission—teaching and scholarship consistent with their
Christian worldview—these institutions will inevitably
divert faculty from this mission to engage in irrelevant,
but not prohibited, rituals imposed by judges who may not
fully appreciate an institution’s unique religious tradition.
See Our Lady, 140 S. Ct. at 2066. Yet an institution
may prefer adding unnecessary procedure or religious
formalities to leaving faculty free to define and integrate
their personal theology, unmoored from the institution’s
beliefs, inevitably causing the institution to lose its
essential character.7 Determining whether a position
is ministerial cannot depend on the quantum of quasireligious ritual when it exists to teach and pervasively
integrate scholarship with the Christian faith. “This
holds true regardless of whether the teacher provides
instruction in religious or secular subjects.” Duquesne
Univ. of the Holy Spirit v. N.L.R.B., 947 F.3d 824, 829
(D.C. Cir. 2020) (citing N.L.R.B. v. Catholic Bishop of
Chicago, 440 U.S. 490, 501-02 (1979)). Schools should not
be required to redirect faculty from accomplishing their
essential teaching and scholarly mission merely to satisfy
judicial expectations for ritual, preaching, or prayer, when
faith-saturated scholarship and teaching is a full-time job.
7. McConnell, supra note 4, at 313.

20
To be clear, reexamining and revising faculty and
employment policies and practices is not without value.
Institutions should periodically review policies to
ensure applicants and employees accurately understand
their employer’s expectations. However, this process
should be driven by the needs of the school, not an
arbitrary standard imposed by courts unfamiliar with an
institution’s religious beliefs and practices. Such a process,
motivated by avoiding litigation rather than accomplishing
educational mission, will inevitably reduce individual
academic freedom. Religious colleges and universities that
hope to maintain their religious character will be forced to
promulgate increasingly detailed descriptions of conduct
connected to faith to ensure that employment disputes
become religious disagreements, the most advantageous
legal ground.
This Court recognized the concerns present here
thirty-four years ago:
Th[e] prospect of government intrusion raises
concern that a religious organization may be
chilled in its free exercise activity. While a
church [or religious college] may regard the
conduct of certain functions as integral to its
mission, a court may disagree. A religious
organization therefore would have an incentive
to characterize as religious only those activities
about which there likely would be no dispute,
even if it genuinely believed that religious
commitment was important in performing other
tasks as well. As a result, the community’s
process of self-definition would be shaped in
part by the prospects of litigation. A case-

21
by-case analysis for all activities therefore
would both produce excessive government
entanglement with religion and create the
danger of chilling religious activity.
Amos, 483 U.S. at 343–44. These concerns related to
employment decisions regarding a gymnasium’s building
engineer with no duties “even tangentially related to any
conceivable religious belief or ritual of the” church facility
owner. Id. at 332. This case presents similar concerns,
but with far more dramatic consequences for the future
of religious higher education.
Leaving the Massachusetts Court’s decision in place
will require religious colleges and universities to change.
Internal policies, personnel decisions, and accomplishing
the core faith-infused teaching mission of religious
educational institutions should be determined by faith
and the search for truth, not judicial decrees. Additional
duties and unnecessarily restrictive policies may provide
additional legal defenses, but also limit diversity of thought
and debate. Religious institutions must be allowed to
decide through whom and how they accomplish teaching
and scholarship within their religious worldview. The
Massachusetts Court violated Gordon’s First Amendment
rights when it examined not only whether Gordon required
integrating faith into its teaching and scholarship, but
whether that was religious enough for the court’s shifting
expectations. The Court should reverse the decision and
ensure religious colleges and institutions remain free to
define and practice their faith across any academic subject
as their faith requires.

22
IV. The Questions Presented Are Crucial To Preserve
Religious Institutions’ Faithfulness to Their
Religious Tenets Despite Cultural Shifts and to
Resolve Existing Disparities Among Lower Courts
in Applying the Ministerial Exception.
Not unexpectedly, the decision below arose in the
context of alleged retaliation for a professor opposing a
religious college’s committed beliefs and related policies
concerning sexual orientation and gender identity.
DeWeese-Boyd, 163 N.E.3d at 1003. This Court predicted
such cases would arise. See Bostock v. Clayton Cty., 590
U.S. ___, 140 S. Ct. 1731, 1754 (2020). Justice Gorsuch
anticipated that the Court would in the future need to
address cases involving the intersection of employment
discrimination questions under Title VII (or, as relevant
here, state discrimination laws) with doctrines protecting
religious liberty. Id. One year later, here we are.
Importantly, the Court already set the stage in Bostock
for the result it must find here. The Court recognized “the
First Amendment can bar the application of employment
discrimination laws ‘to claims concerning the employment
relationship between a religious institution and its
ministers.’” Id. (citing Hosanna-Tabor, 565 U.S. at 188).
Justice Alito, in his dissent, cautioned the breadth of
issues that would come before this Court as a result of
the Bostock decision, warning it would “threaten freedom
of religion” as the Massachusetts Court’s decision in fact
does. Id. at 1781 (Alito, J. dissenting). He anticipated the
very issue on which Gordon now petitions this Court:
A school’s standards for its faculty “communicate
a particular way of life to its students,” and a
“violation by the faculty of those precepts” may

23
undermine the school’s “moral teaching.”8 Thus,
if a religious school teaches that sex outside
marriage and sex reassignment procedures
are immoral, the message may be lost if the
school employs a teacher who is in a same-sex
relationship or has undergone or is undergoing
sex reassignment. Yet today’s decision may
lead to Title VII claims by such teachers and
applicants for employment.
Id. Justice Alito acknowledged that the ministerial
exception recognized in Hosanna-Tabor may protect some
institutions from discrimination claims, but also noted
the exception’s scope is disputed and provides limited
protection in some lower courts. Id.
The Bostock opinion and Justice Alito’s dissent
highlight two issues of particular concern for Amici,
supporting their request to grant certiorari. First, religious
institutions must retain their ability to respond to social and
policy issues consistent with their longstanding religious
beliefs. The cultural shifts reflected in Bostock are not the
only ones religious institutions face. Such ongoing shifts
impact all disciplines, including those that conflict with
religious schools’ foundational principles. First Amendment
protections must solidly guarantee these institutions’
freedom to navigate this cultural landscape consistent
with their faith, and to require faculty to educate students
accordingly. Religious institutions should not be required to
revise their governing documents, policies, or titles to avoid
judicial scrutiny based on evolving law. Gordon’s second
question presented is particularly vital for this Court to
address to ensure religious institutions can remain faithful
8. McConnell, supra note 4, at 322.

24
to their missions without abandoning their faith or internal
governance based on each new court decision or statute.
Religious institutions’ foundational documents should
remain their controlling authority, free from government
or judicial interference. See supra Section II.
Second, as Justice Alito noted, disparities exist in
the fundamental rights afforded religious institutions
across different jurisdictions due to disagreement among
lower courts in applying the ministerial exception. See
Bostock, 140 S. Ct. at 1781; see DeWeese-Boyd, petition
for cert., at Section III (U.S. Aug. 2, 2021) (No. 21-145).
This significantly impacts Amici, whose members are
spread across the United States. While dedicated to
the same purpose of providing academically rigorous
education grounded in the Christian religion and with
the same overriding mission to integrate faith principles
within their academic communities, individual institutions
are subject to differing legal precedent that applies the
ministerial exception to varying degrees depending on
where they reside. A religious institution should not be
required to alter its parameters for hiring, retaining, or
promoting faculty who teach its disciplines (or limit the
constituents it desires to serve9) based on jurisdictional
differences in applying religious liberty principles.9
9. Thomas Aquinas College must account for different
relig ious liber ty protections between its California and
Massachusetts campuses. The college “may admit only Catholic
students to the [Massachusetts] campus” in order to receive the full
extent of religious-liberty protections under Massachusetts state
law, while its California campus is open to students of all faiths. See
https://www.thomasaquinas.edu/about/one-program-two-coasts/
new-england (last visited Aug. 29, 2021). This result arises from
Massachusetts’ mandate, permitting the college to prefer hiring
Catholics in Massachusetts only if it agreed to restrict admission
to Catholic students. See Application of Thomas Aquinas College to

25
The only party equipped to determine who serves as
a minister in a religious higher educational institution is
the religious institution itself. See supra Sections I and II.
Our Constitutional framework forbids federal and state
governments and courts from usurping that role. And
the breadth of a religious institution’s First Amendment
protection should not differ based on its location.
Accordingly, the Massachusetts Court overstepped its
bounds and should be reversed.
CONCLUSION
The Court should grant Gordon College’s petition
for a writ of certiorari and summarily reverse the
Massachusetts Court’s decision, or in the alternative grant
review to consider the two questions presented.
Respectfully Submitted,
Samuel W. Diehl
CrossCastle PLLC
333 Washington Avenue North
Suite 300-9078
Minneapolis, MN 55401
(612) 429-8100
sam.diehl@crosscastle.com

Sharon A. Rose
Counsel of Record
Jared R. Butcher
CrossCastle PLLC
1701 Pennsylvania Avenue, NW
Suite 200
Washington, DC 20006
(202) 960-5800
sharon.rose@crosscastle.com

Counsel for Amici Curiae
Award the Bachelor of Arts in Liberal Arts, Massachusetts Board
of Higher Education Request for Committee and Board Action,
14 (Oct. 23, 2018), https://www.mass.edu/bhe/lib/documents/
AAC/05_AAC%2019-03%20Thomas%20Aquinas%20College%20
FINAL.pdf.

